HHS/OIG, Audit -"Review of Medicaid Administrative Costs Claimed through Maryland's
Statewide Cost Allocation Plan,"(A-03-05-00202)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Administrative Costs
Claimed through Maryland's Statewide Cost Allocation Plan," (A-03-05-00202)
February 28, 2006
Complete
Text of Report is available in PDF format (342 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Maryland claimed Medicaid administrative costs through
its cost allocation plan in accordance with Federal statutes, regulations, and guidance.  From
October 2003 to September 2004, Maryland claimed $50.7 million in Federal funding for Medicaid
administrative services provided by Department of Human Resources (DHR).  Maryland erroneously
claimed Medicaid administrative costs totaling $666,694 (Federal share).  Maryland did
not amend its cost allocation plan to add 24 cost centers used to distribute DHR costs.  Cost
centers are pools of similar expenses in terms of the functions they benefit.  We recommended
that Maryland:  (1) refund to the Federal Government $666,694 in administrative costs
incorrectly claimed between October 2003 and September 2004; (2) identify additional claims
made subsequent to our audit period for unapproved cost centers and make the appropriate
refunds; and (3) discontinue claiming costs that have not been approved as part of the States
cost allocation plan, or amend the States cost allocation plan to include all cost centers
not currently approved.  Maryland concurred with our recommendations.